OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/IRAQ’S
ECONOMIC GOVERNANCE II
PROGRAM
AUDIT REPORT NO. E-267-09-004-P
June 3, 2009




BAGHDAD, IRAQ

Office of Inspector General

June 3, 2009

MEMORANDUM

TO:       	          USAID/Iraq Acting Mission Director, Thomas R. Delaney

FROM: 	              Acting Director, Office of Inspector General/Iraq, Mark S. Norman /s/

SUBJECT:	 Audit of USAID/Iraq’s Economic Governance II Program
                     (Audit Report No. E-267-09-004-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and modified the report language as appropriate.
Your comments are included in their entirety as appendix II.

The report contains 12 recommendations for corrective action. On the basis of your written
comments, in which you described actions planned and already taken to address our concerns,
we consider that final action has been taken on recommendations 1, 2, 3, 5, 6, 7, 9, 10, 11, and
12, and a management decision has been reached on recommendations 4 and 8.

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during this audit.




U.S. Agency for International Development
Office of Inspector General/Iraq
APO AE 09316
ww.usaid.gov/oig
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective .................................................................................................................. 3 


Audit Findings ................................................................................................................. 4 


     Program Monitoring and Management
     Should Be Strengthened ............................................................................................. 5 


     Mandatory Program-Funded Information 

     Technology Reviews Should Be Conducted ............................................................... 9 


     Subcontract Approval Level Should Be
     Reduced.................................................................................................................... 12 


     Controls Over Nonexpendable Property 

     Should Be Implemented............................................................................................ 13 


     Periodic Progress Reporting Should Be
     Required.................................................................................................................... 14 


     Contracting Officer’s Technical 

     Representatives Should Maintain Better 

     Work Files ................................................................................................................. 15 


     Antiterrorism Provision Should Be 

     Included in Two Subawards ...................................................................................... 16 


Evaluation of Management Comments ....................................................................... 18 


Appendix I—Scope and Methodology......................................................................... 21 


Appendix II—Management Comments........................................................................ 24 


Appendix III—Economic Governance II 

Program—List of Ongoing Tasks ................................................................................ 29

SUMMARY OF RESULTS

USAID/Iraq’s Economic Governance II (EGII) Program, begun in September 2004, was
designed to provide technical assistance to the Government of Iraq to develop and
enable economic reforms through policy, regulations, laws, and institutional structures
that would foster a competitive private sector. To implement the program, USAID/Iraq
awarded a $223 million1 contract to BearingPoint, Inc. (the contractor), to develop and
implement international best-practice techniques that would improve Iraq’s economic
governance and promote an environment for growth led by the private sector (page 3).

However, after 4 years the program has not been successful in providing the foundation
for an open, modern, mixed-market economy, and it has not made a significant impact
upon the economic environment in Iraq. Further, although the program provided a great
deal of technical assistance, we could not find any direct or indirect linkages between the
contractor’s deliverables and improvements in the seven functional areas upon which the
program was expected to make an impact (page 4).

The EGII Program aimed to improve seven key economic areas through the
accomplishment of 398 individual tasks. However, USAID officials did not establish a
systematic mechanism to monitor the myriad tasks and thus could not track whether the
tasks had been performed, were on schedule, or were behind schedule. Without such
knowledge, the mission was unable to manage the contract effectively or measure
improvements in the seven functional areas in which the EGII Program was meant to
have the greatest effect. Consequently, in September 2008, after 4 years and
$192 million in incurred costs, fewer than half of the originally planned 398 tasks had
been performed. In addition, implementation of a major information system (the Iraq
Financial Management Information System) was behind schedule, and the system was
not yet fully operational (page 4).

Several factors contributed to the mission’s lack of oversight of the economic
governance contract, including a high turnover of contracting officer’s technical
representatives (COTR), who had been assigned to monitor the contract, and problems
with the contract itself. For example, the contract did not include a monitoring and
evaluation clause to measure the program’s results or any requirement to report
progress periodically. Such performance measures would have allowed the COTR
to better monitor the program’s progress and completion of the contract deliverables
(page 4).

In addition to identifying the program’s oversight problems, the audit found other areas
for improvement.        The program needs to conduct mandatory, program-funded
information technology reviews; reduce BearingPoint’s subcontract approval level;
implement controls over nonexpendable property; ensure that COTRs maintain
better work files; and include an antiterrorism provision in two of BearingPoint’s
subawards. The report contains 12 recommendations to address the identified findings
(pages 5–17).


1
  A contract modification, signed September 30, 2008, between USAID/Iraq and BearingPoint,
reduced the contract ceiling by $1,707,314 to $223,292,653.


                                                                                             1
In response to our draft report, USAID/Iraq concurred with each of the 12
recommendations and provided documentation to support the final actions taken to
address 10 of the recommendations. In addition, the mission described actions to be
taken to address the remaining two recommendations. On the basis of the mission’s
comments and the supporting documentation provided, we consider that final action has
occurred on recommendations 1, 2, 3, 5, 6, 7, 9, 10, 11, and 12, and a management
decision has been made to address recommendations 4 and 8 (page 18).

Management comments are included in their entirety in appendix II.




                                                                                   2
BACKGROUND

The Economic Governance II (EGII) Program is the successor to the Economic Reform
Program. The purpose of the program was to provide technical assistance to help Iraq
overcome problems in its legal, fiscal, institutional, and regulatory frameworks and
functions that impede private investment and trade.

To implement the program, USAID/Iraq awarded a $223 million contract to BearingPoint,
Inc. (the contractor), on September 3, 2004. The 5-year contract included two
$20 million, 1-year option periods, which were simultaneously exercised on June 21,
2007. They extended the contract for 2 additional years to September 2, 2009.

Under the contract, BearingPoint was expected to develop and implement international
best-practice techniques that would improve economic governance and encourage
growth in the private sector. The contractor would work with USAID, other U.S. and
Coalition entities, and Iraqi institutions to build a foundation for an open, modern, mixed-
market economy. The program comprised seven target areas:

   •	   Tax, fiscal, and customs reform
   •	   Central Bank of Iraq capacity building
   •	   Banking sector development
   •	   Commercial law and institutional reform
   •	   Utilities and regulatory reform
   •	   Social services and pension reform
   •	   General policy implementation

To achieve these ambitious goals, the program’s implementing contract was broad,
multifaceted, and complex. BearingPoint was expected to accomplish 398 tasks within
the contract. As of December 16, 2008, USAID/Iraq had disbursed $195 million of the
$223 million obligated.


AUDIT OBJECTIVE
As part of the fiscal year 2008 annual audit plan, the Office of Inspector
General/Baghdad conducted this audit to answer the following question:

   •	 Is USAID/Iraq’s Economic Governance II Program achieving intended results,
      and what impact has the program made?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                          3
AUDIT FINDINGS

USAID/Iraq’s Economic Governance II (EGII) Program has not been successful in
achieving its intended results—to help provide the foundation for an open, modern,
mixed-market economy—and it has not made a significant impact upon the economic
environment in Iraq. Although the program provided a great deal of technical
assistance, we could not find any direct or indirect linkages between the contractor’s
deliverables and improvements in the seven areas that the EGII Program was expected to
affect.

When the program started in September 2004, it focused on improving seven key
economic areas through the accomplishment of 398 individual tasks. However, USAID
officials did not establish a systematic mechanism to monitor the myriad tasks and did
not track the tasks to determine whether they had been performed, were on schedule, or
were behind schedule. Without such knowledge, the mission was unable to manage the
contract effectively or measure the program’s expected improvements in the seven
areas. Consequently, in September 2008, after 4 years and $192 million in incurred
costs, fewer than half of the originally planned 398 tasks had been performed. In
addition, implementation of a major information system (the Iraq Financial Management
Information System) was behind schedule, and the system was not yet fully operational.2

Mission and contractor officials said that progress was made on some of the contract’s
original 398 tasks. These included:

      •	 Developing tax reform recommendations for the Iraqi Ministry of Finance.
      •	 Reviewing and upgrading procedural and operations manuals for loans for the
         Central Bank of Iraq.
      •	 Preparing monetary policy reports for senior officials at the Central Bank of Iraq.
      •	 Developing strategies for assessing nonperforming loan portfolios for Iraqi state-
         owned banks.
      •	 Performing commercial law and institutional reform assessments to benchmark
         the status of the commercial law regime for the Iraqi Government.
      •	 Creating a Web site containing laws and legal reform agendas, as well as a
         monthly newsletter.

However, our review of a sample of 27 completed tasks found that only one task had
sufficient documentation to demonstrate that the task had been completed. We could
not conclude that the other tasks had been completed, because plans for each task were
not always clearly written and because the mission could not always provide supporting
documentation.

Several factors contributed to the mission’s lack of oversight of the economic
governance contract, including a high turnover of contracting officer’s technical
representatives (COTRs), who were assigned to monitor the contract, and problems with
the contract itself. For example, the contract did not include a monitoring and evaluation
clause to measure the program’s performance results or a requirement for periodic
reporting that would have allowed the COTR to better monitor the program’s progress

2
    See appendix III for the status of ongoing contract tasks.


                                                                                          4
and the contractor’s work. Despite these weaknesses, USAID/Iraq simultaneously
exercised two 1-year option periods with its implementing contractor for $40 million in
June 2007.

To address identified weaknesses and to improve USAID/Iraq’s oversight of the EGII
Program, the mission should perform the following:

   •	 Strengthen program monitoring and management.
   •	 Ensure that mandatory program-funded information technology reviews are
      conducted.
   •	 Reduce the subcontract approval level.
   •	 Implement controls over nonexpendable property.
   •	 Require periodic reports on progress.
   •	 Ensure that COTRs maintain work files documenting contract oversight.
   •	 Ensure that antiterrorism provisions are included in two subawards.

These issues are discussed further in the following sections.


Program Monitoring and
Management Should Be
Strengthened

  Summary: To monitor and assess a program’s performance, USAID’s Automated
  Directives System requires a systematic process to report on progress toward the
  achievement of results and targets. However, the Economic Governance II
  Program did not have a systematic mechanism to collect, record, track, or analyze
  contract deliverables and tasks until a performance management plan was
  developed in 2007. USAID/Iraq did not track and record the receipt of contract
  deliverables because the mission officials were aware of the status of each task.
  However, mere knowledge of the status of deliverables does not provide an
  indication of progress (or lack thereof) toward achieving the intended outcomes.
  Consequently, during the last year of the contract, the program’s objectives were
  significantly curtailed to fewer tasks and even earlier termination of programs.

One of USAID’s five core values, “Managing for Results,” focuses on improving USAID’s
overall performance. To instill this value in each USAID program, USAID’s Automated
Directives System (ADS) includes three chapters that discuss how to manage for results.
Specifically, ADS 201—“Planning,” ADS 202—“Achieving,” and ADS 203—“Assessing
and Learning” seek to define and organize work around the end result that USAID
programs seek to accomplish.

Despite the importance placed on managing USAID’s activities to attain effective results,
USAID/Iraq (1) maintained no systematic process for monitoring EGII Program
deliverables and tasks, (2) lacked an effective performance management plan (PMP) to
track the program’s achieved results, (3) did not develop relevant performance indicators
to measure the program’s activity, and (4) neglected available assistance to better
manage the program’s performance and PMP. These issues are described below.



                                                                                       5
No systematic process to monitor contract tasks. ADS 200.6 defines “performance
management” as:

   •	 The systematic process of monitoring the results of activities.
   •	 Collecting and analyzing performance information to track progress toward
      planned results.
   •	 Using performance information to influence program decisionmaking and
      resource allocation.
   •	 Communicating results achieved, or not attained, to advance organizational
      learning and tell the Agency’s story.

The program’s original statement of work contained 398 tasks to assist and improve the
economic governance environment in Iraq. Some of the tasks required the contractor to
produce reports, assessments, or other deliverables; implement programs, systems, and
Web sites; develop curriculum and conduct training sessions; and create baselines and
surveys to be used for statistical analysis. Because the contract contained so many tasks,
a systematic performance management and monitoring process should have been
developed for collecting, analyzing, recording, and reporting performance information to
track the intended contract tasks. This process could have included a document as simple
as, but not limited to, a spreadsheet to track the status of tasks and the receipt of
deliverables or other corroborating support to document the tasks’ status. However, the
program’s contracting officer’s technical representatives (COTRs) did not implement such
a continuous internal mechanism to monitor the contract’s tasks and deliverables.

Before the adoption of the program’s PMP in 2007, little documentation existed to
illustrate how the mission was monitoring the program. According to the program’s
former COTR, records were not kept, except for some e-mails, because he knew the
details of each task. Additionally, the COTR stated that the monitoring process included
communications with contractor personnel to discuss the activities. Moreover, the
official said that contract tasks were verified through weekly and monthly reports rather
than formal performance measurement documentation. However, because of rapid
staff turnover and because no one sufficiently documented the performance of all 398
tasks in the contract, the mission could not determine whether tasks under the
$223 million contract had been completed, were behind schedule, or were on track.

No effective performance management plan in place. To manage the process of
assessing and reporting progress toward achieving a strategic objective, it is mandatory
that USAID’s operating units prepare a complete PMP. Specifically, ADS 203.3.4.2
states that all awards have defined result indicators that are updated with new
performance information as programs develop and evolve. The directive also states that
performance indicators should be directly related to the activity and closely track the
results they are intended to measure and that performance indicators selected for
inclusion in the PMP should measure changes that are clearly and reasonably
attributable to USAID efforts. To be effective for management decisionmaking, the ADS
suggests that one way to assess attribution is to ask, “If there had been no USAID
activity, would the measured change have been different?”

Although a PMP should have been developed, the program and implementing contractor
operated without one until September 2007—3 years after the contract was awarded.



                                                                                        6
This occurred primarily because the requirement to have a PMP was not included in the
EGII Program contract. In June 2008—9 months after a PMP was adopted—USAID/Iraq
officially modified the contract to require a monitoring and evaluation plan with
performance indicators for tracking quarterly and annual progress. Although a PMP was
finally completed, it was not the relevant and reliable management tool that it was
intended to be.

Most performance indicators not relevant or attributable to program activities.
The third-quarter 2008 performance indicator data table reported on 41 performance
indicators. However, the contractor reported “not applicable” for 23 of the quarterly
indicator results—more than half of the program’s indicators. Of these 23 indicators, 19
were a repeated “n/a” from the previous quarter. Program officials and the performance
indicator data table indicated that 17 indicators were either inactive or suspended—
representing 41 percent of the indicators—with 10 inactive for more than a year. An
inquiry into these inactive performance indicators revealed that six of eight intermediate
result areas contained indicators that did not appear to be or were no longer reasonably
attributable to the program’s activities.

Other performance indicators also did not measure activities attributable to the EGII
Program or were not well defined. For example, the indicator “CBI Policy Interest Rate
as a Monetary Policy Tool” was not reasonably attributable to the program’s activities.
Similarly, the performance indicator “Number of Businesses Registered” did not measure
only those businesses attributable to the program’s activities. Furthermore, confusion
arose from definitions of performance indicators that were different in the contract from
those reported on, so that indicators and results had to be clarified or redefined with
footnotes. According to ADS 203.3.4.2, indicators should report data that are clearly
attributable to program activities.

Performance monitoring assistance not used efficiently and effectively.
USAID/Iraq’s Program Office staff includes a performance management specialist to
assist technical offices with developing, monitoring, reviewing, and evaluating a
program’s performance. The Program Office started the monitoring and evaluation
performance program in 2003 to address the unique constraints and challenges that
COTRs encounter when they monitor program activities in Iraq’s fluid environment.
However, the EGII Program did not use this resource to the benefit of the program or as
a tool for facilitating field monitoring. For example, since the Program Office initiated the
need for the program to develop a PMP in 2007, the timeliness and quality of the
program’s indicators have suffered from a lack of attention—as demonstrated by the
many irrelevant performance indicators mentioned above—and the PMP’s usefulness as
a management tool has decreased.

Although COTRs are responsible for monitoring program performance, little
documentation exists that the COTR monitored the program’s PMP, verified data
reported on the performance data table, or requested available assistance. Rather than
applying these prescribed monitoring practices, the COTR relied on informal
communication—in meetings or by telephone or e-mail—with contractor personnel to
discuss the activities. The COTR stated that reporting on the many tasks was difficult
because the program was so large, expansive, and technical. The COTR monitored the
contract tasks through weekly and monthly reports rather than formal performance
documentation. Another program official stressed that managing the program and



                                                                                           7
reporting on administrative tasks were complicated by the lack of resources and
personnel.

The lack of program monitoring and performance management is an implied cause for
the September 2008 modification that significantly reduced the contract’s original
statement of work. With a properly functioning PMP and appropriate performance
indicators, problems would have been identified earlier and the contract modified sooner
to better ensure the completion of the remaining tasks.

In summary, USAID/Iraq needs to improve its monitoring of the EGII Program activities.
The mission should develop a systematic monitoring process, and it should review the
program’s PMP indicators in response to changes in the program’s activities and in the
current operating environment. Such performance indicators should comply with ADS
203—including being reasonably attributable to USAID activities—in order to manage for
results and provide credible reporting. Without clearly defined indicators, the mission will
not be able to measure program progress and achievements accurately. Consequently,
we are making the following recommendations:

   Recommendation No. 1: We recommend that USAID/Iraq develop a systematic
   monitoring process for the Economic Governance II Program to collect, record,
   organize, and track the status of each task required by the contract, or its
   modification, within 30 days from the issuance of this report.

   Recommendation No. 2: We recommend that USAID/Iraq review and revise the
   Economic Governance II Program performance indicators listed in its performance
   management plan to ensure that they are reasonably attributable to USAID
   activities, in accordance with USAID’s Automated Directives System 203.3.4.2.




                                                                                          8
Mandatory Program-Funded
Information Technology
Reviews Should Be Conducted
    Summary: USAID’s Automated Directives System 548 specifies that any program-
    funded activity with an information technology component of $100,000 or more
    needs to be submitted for review and approval. Despite this requirement,
    USAID/Iraq’s Economic Governance II Program did not consistently submit
    information technology components above the review threshold for approval.
    Program and mission officials believed that Iraq’s relatively short assignment tours,
    rapid employee turnover, and ignorance of the directive were contributing factors.
    Consequently, we estimated that $12 million to $40 million of program-funded
    information technology projects were not reviewed or approved and are at high risk.

USAID’s Automated Directives System (ADS) 548.3 mandates that before program-
funded activities with an information technology (IT) component of $100,000 or more
over the full IT project life cycle3 are implemented, project proposals must be submitted
to USAID for an independent verification and validation (IV&V) review and approval.
Furthermore, an ADS 548 template provided by USAID’s Office of Chief Information
Officer/Business, Consulting, and Customer Service Division (CIO/BCCS) states that all
IT-related procurements, application system scopes of work, training programs,
contractor proposals, IT needs assessments, hardware/software specifications, software
development, and IT-related services (e.g., installation, maintenance, and technical
assistance) must be submitted to CIO/BCCS for review and approval.

Although the ADS requirement is meant to ensure that USAID projects adhere to the
Clinger-Cohen Act,4 the Agency’s IV&V process is a reliable technique to increase the
efficiency and effectiveness of a project’s IT components and deliver a faster, cheaper,
and more sustainable development project. The Agency’s requirements also aim to
lessen the burdens faced by USAID program managers, such as the time and budget
pressures associated with highly technical projects and the limited resources available to
assist them with these challenges, ensuring the best return for the investment.

To conduct a full IT review before finalizing IT system specifications and expending
funds, BCCS requires program managers to submit the following information, as
applicable:

     •	 Description of the project IT component
     •	 Goals and objectives of the IT component
     •	 Summary of IT needs assessment
     •	 Description of the host country institution IT infrastructure
     •	 Discussion of primary applications, system design concept, and system
        implementation plan
     •	 List of IT system specifications, including hardware and software architecture

3
  Full IT life-cycle costs include all direct and indirect costs for planning, procuring, operating and 

maintaining, and disposing of the IT components. 

4
  Public Law 104–106, Division E (“Clinger-Cohen Act”). 




                                                                                                      9
    •   Results of any studies recommending specific IT tools or platforms
    •   Maintenance and support plans for the system
    •   Relevant system cost information, including breakdowns for major components
    •   Measurable success factors or outcomes to assess IT transfer objective

ADS 548.3.2.1 also suggests that program managers contact ADS-
548Review@usaid.gov to conduct an early review of a project’s planning process for IT
procurements to ensure that the necessary aspects of an IT project are included in the
plan. This step, conducted before the IV&V review, seeks to provide valuable insight
and information from enterprise, technical, and project levels that could save project time
and money in the long term.

Despite the requirements stated above, USAID/Iraq did not follow Agency guidance
consistently for submitting program-funded IT projects of $100,000 or more to USAID’s
BCCS. The ADS 548 project review log, maintained by BCCS, reports USAID program-
funded IT projects that have undergone an IV&V review and have been approved. A
review of the project log identified nine program-funded IT projects, worth $6.3 million,
that were approved by BCCS. However, as discussed below, millions of dollars more
were spent on EGII Program-funded IT projects that were not reviewed or approved.

USAID/Iraq’s implementing contractor accumulated costs on a functional-area basis
aligned with its contract and did not have a method to capture IT project costs by each
activity. Consequently, the contractor could not quantify the actual amount of the
program’s IT purchases. However, the contractor estimated its IT project-related costs
to be $18.1 million—leaving $11.8 million not appropriately reviewed or approved as
required by ADS 548.

USAID/Iraq’s accounting system also does not capture and accumulate each contractor
expense by activity. Therefore, only relevant obligation data could be used to estimate
the potential IT procurement costs that were not submitted for IV&V review. In an effort
to estimate the amount of IT purchases, we used program obligation data to identify
$46.3 million that had been obligated to three comprehensive IT development projects.5
We compared this amount with the $6.3 million that was submitted to BCCS. Using this
methodology to calculate the amount of IT purchases not reviewed or approved by
USAID’s BCCS, we estimated the value of the IT purchases to be $40 million.




5
  According to contract modification no. 22, signed September 30, 2008, the three projects are
the Iraq Financial Management Information System, Central Bank of Iraq, and Social Safety
Net/Pension Reform. The obligation amount excludes project management, security, and fixed-
fee award apportioned costs.



                                                                                           10
    Estimated Incurred Costs and Amounts Obligated for Economic Governance II 

     Program-Funded IT Projects and the Amount That Received Mandatory IV&V 

                               Review and Approval 


                                        Contractor’s estimated
                                                                       Amount obligated by
                                          incurred costs for
                                                                       USAID/Iraq for three
       Development project               program-funded IT
                                                                        program-funded IT
                                           procurements of
                                                                          procurements
                                           $100,000 or more
Total amount                                   $18.1 million                $46.3 million
Accumulated value of the nine
EGII Program activities reviewed
and approved by USAID’s BCCS                   $6.3 million                  $6.3 million
(Source: ADS 548 Project Review
Log)
Potential program costs not
reviewed or approved by USAID’s                $11.8 million                $40.0 million
BCCS before being implemented

Moreover, records from BCCS showed that the program had no IT project approvals
from January through December 2008, even though four of the five remaining projects
under the EGII Program are IT development projects. The records also showed no
approval for $19 million obligated by the mission for the Iraq Financial Management
Information System.

Although we could not quantify the exact amount of IT purchases that were not reviewed
or approved as required by the BCCS, we determined that the amount is significant
($12 million to $40 million).

The contractor’s own procurement policy for IT systems states that IT procurements of
$100,000 or more must be presented to USAID for approval, but we could not
corroborate why the contractor did not consistently adhere to this policy. However,
program and mission officials believed that Iraq’s relatively short assignment tours, rapid
employee turnover, and ignorance of the directive were contributing factors.

If USAID/Iraq had complied with ADS 548, it might have avoided paying approximately
$149,000 for a supplemental technical review of the information system. The mission
ordered the review in response to an audit recommendation by the Special Inspector
General for Iraq.6 The audit recommended that the mission conduct an independent,
third-party assessment of the system to assess the Government of Iraq’s management
and system requirements and its capabilities to implement the system successfully.
Many of the same assessment procedures would have taken place during the
USAID/BCCS IV&V review process.

Without the benefit of USAID’s BCCS review and approval of program-funded IT
procurements, the usefulness and sustainability of the IT projects being implemented

6
 Office of the Special Inspector General for Iraq Reconstruction, “Interim Report on Efforts and
Further Actions Needed to Implement a Financial Management Information System in Iraq” (Audit
Report No. SIGIR-08-001, October 24, 2007).


                                                                                             11
under the EGII Program and the related achievement of USAID/Iraq’s economic
governance goals are at significant risk. To address this concern, we are making the
following recommendations:

      Recommendation No. 3: We recommend that USAID/Iraq request that the
      contractor prepare a schedule of all program-funded information technology
      projects in accordance with USAID’s Automated Directives System 548.3.

      Recommendation No. 4: We recommend that USAID/Iraq review all technology
      projects and submit those with a minimum cost of $100,000 to USAID’s Office of
      Chief Information Officer/Business, Consulting, and Customer Service Division
      for approval.

      Recommendation No. 5: We recommend that USAID/Iraq modify the Economic
      Governance II Program contract to require that all program-funded activities with
      an information technology component valued at $100,000 or more over the full
      information technology project life cycle be submitted to USAID for independent
      verification and validation review and approval, in accordance with Automated
      Directives System 548.3.


Subcontract Approval Level
Should Be Reduced
According to Federal Acquisition Regulation (FAR) 44.201-1(b), a consent to subcontract
is required for noncommercial fixed-price subcontracts that exceed either the simplified
acquisition threshold of $100,000 or 5 percent of the total estimated cost of the contract.
Although 5 percent of USAID/Iraq’s EGII Program base contract value was $9,231,862,7
mission contracting office officials confirmed that since the simplified acquisition
threshold of $100,000 was exceeded, any noncommercial fixed-price subcontract of
$100,000 or more would require the consent of USAID/Iraq’s contracting officer.

Although the regulation prompts the contractor to seek consent for fixed-price
subcontracts that exceed either threshold, a previous mission contracting officer issued
a letter on September 3, 2004, stating that the consent threshold was $9,231,862
(5 percent of the original contract value). As a result, the contracting officer gave the
contractor the authority to award subcontracts $9,131,862 above USAID’s allowable
simplified acquisition threshold without seeking USAID/Iraq’s consent.

Notwithstanding the FAR, the contracting officer’s fiduciary duty is to represent the U.S.
Government through his/her delegated authority and to ensure that a material
procurement is in the best interest of the award, the program, and the U.S Government.
However, the contracting officer’s decision to give the contractor authority to enter into
subcontracts of approximately $9 million without the approval of the contracting officer was
unreasonable, and this action impaired the mission’s ability to monitor the subcontracts.
Such monitoring would have included reviewing the scope of the subcontracts, the
justification for the procurement, and the qualifications and technical skills of the
subcontractors.      In addition to reducing the mission’s oversight of significant

7
    The total award amount for the base period of USAID/Iraq’s EGII Program was $184,637,237.


                                                                                            12
procurements, this condition could compromise the overall success of the EGII Program.
To address this weakness, we are making the following recommendation:

    Recommendation No. 6:          We recommend that USAID/Iraq’s Office of
    Acquisition and Assistance rescind the prior guidance issued for the subcontract
    consent threshold and reduce the subcontract consent threshold to the
    appropriate level.


Controls Over Nonexpendable
Property Should Be
Implemented
USAID Acquisition Regulation (AIDAR) 752.245-71(b) states that contractors shall
prepare and establish a program, to be approved by the mission, for the receipt, use,
maintenance, protection, custody, and care of nonexpendable property8 for which they
have custodial responsibility, including the establishment of reasonable controls to
enforce such a program. COTRs are responsible for monitoring the contractor’s
management of and annual reporting on this property, as designated by the COTR
designation letter.

Further, in accordance with AIDAR 752.245-71(c), contractors must submit an annual
report on all nonexpendable property in the contractor’s custody. It also requires the
contractor to attest, by signature, to the following:

    •	 Physical inventories of Government property are conducted not less frequently
       than annually.
    •	 The accountability records maintained for Government property in the
       contractor’s possession are in agreement with such inventories.
    •	 The total of the detailed accountability records maintained agrees with the
       property value shown, and the estimated average age of each category of
       property is as cited.

In addition to the these requirements, an internal memorandum sent from the contractor
to its USAID project management teams on April 20, 2005, expressed the importance of
the management and accountability of equipment or property procured with USAID
funds. However, the program contractor never submitted a nonexpendable property
plan to USAID for approval. The contractor stated that annual inventory reports had not
been submitted to USAID/Iraq as required, but that in October 2008—4 years after the
start of the contract—it began the process of rationalizing their inventory and bringing it
into alignment with FAR Part 45 and AIDAR 752.245-70.

Without an inventory report on nonexpendable property, we could not test the existence
of significant assets procured with program funds to determine whether they were being
utilized as intended. Moreover, as the program’s contract priorities have changed to

8
 “Nonexpendable personal property” is defined as property such as furniture, office machines, IT
equipment, and communications equipment that has a unit price of $500 or more and that (1) is
complete in itself; (2) does not lose its identity or become a component part of another item when
used; and (3) is of a durable nature with an anticipated useful life of more than 2 years.


                                                                                               13
focus more on IT projects, the importance of the accountability of these assets is
amplified. Further, the absence of an approved nonexpendable property plan to protect
and account for such property has made program assets susceptible to unintentional
errors, loss, and misappropriation. Moreover, such mistakes are less likely to be
detected.

To comply with applicable regulations related to inventory management, we are making
the following recommendations:

      Recommendation No. 7: We recommend that USAID/Iraq require its Economic
      Governance II Program contractor to prepare and submit a comprehensive
      nonexpendable property report of program-funded assets, as required by USAID
      Acquisition Regulation 752.245-70.

      Recommendation No. 8: We recommend that USAID/Iraq require its Economic
      Governance II Program contractor to complete a nonexpendable property plan,
      as required by USAID Acquisition Regulation 752.245-71(b).

      Recommendation No. 9: We recommend that USAID/Iraq’s Economic Growth
      and Agriculture Office follow established policies and procedures to ensure that
      annual reports on all nonexpendable property are prepared by its contractors in
      accordance with USAID Acquisition Regulation 752.245-71(b).


Periodic Progress Reporting
Should Be Required
The Government Performance and Results Act of 19939 directs agencies to recognize
the need to improve their ability to achieve intended results. As a result, USAID
developed AIDAR clause 752.242-70(a), “Periodic Progress Reports,” which requires
contractors to prepare and submit progress reports as specified in the schedule of the
contract. To implement this regulation, USAID’s Guidebook for Acquisition and
Assistance directs the COTR to develop, with assistance from the contracting office, a
plan for monitoring and reporting the contractor’s technical efforts and for the COTR’s
procedures for determining the contractor’s progress. The COTRs would determine the
reporting requirements that are needed to monitor the contractor’s performance,
including the reporting requirements that should be included in the reporting schedule of
the contract.

USAID/Iraq’s EGII Program contract properly included AIDAR 752.242-70(a), but it did
not specify the minimum reporting requirements that were necessary to monitor the
contractor’s performance adequately. The contract did not include specifications for the
periodic reports, such as their frequency or format, to measure the contractor’s progress.
None of the 22 modifications made to the contract since September 3, 2004, included
guidance that required the contractor to submit periodic progress reports. Mission
personnel did not cite a specific reason for this oversight other than to say it was left out
by mistake.


9
    Public Law 103–62.


                                                                                          14
In June 2006, a successor COTR began receiving succinct monthly reports from the
contractor, but the reports provided only anecdotal information through narrative
descriptions about the program’s activities from one month to the next. These progress
reports—developed and used by the contractor for its own internal reporting—also did
not discuss the specific benchmarks and performance indicators of the activities for
which the PMP was developed. Thus, unless the reports were accumulated and
analyzed collectively, the progress of the program’s activities over time would not be
apparent. Therefore, these reports were not as useful as the regulations had intended.

Performance monitoring adds value and control to the management process when it is
used to provide a snapshot of the program’s past and its future direction. One way to
monitor program performance effectively is to use the periodic progress reports in
conjunction with the program’s PMP. Although a program official stated that the
progress reports were read and filed, and some follow-up action was taken, we were
unable to determine the extent to which the reports were used by mission officials as a
tool to monitor the contractor’s performance.

To ensure that future contractor progress reports are more useful, we are recommending
the following:

   Recommendation No. 10:           We recommend that USAID/Iraq’s Office of
   Acquisition and Assistance, in conjunction with input from the Economic
   Governance II Program contracting officer’s technical representative, modify the
   Economic Governance II Program contract to include the minimum performance
   reporting requirements that are necessary to monitor the contractor’s performance.
   The schedule should include the content of the required reports, their frequency,
   and their due dates.


Contracting Officer’s Technical
Representatives Should Maintain
Better Work Files
USAID’s Guidebook on Acquisition and Assistance and COTR designation letters
discuss the importance of establishing and maintaining adequate COTR files. According
to the guidebook, COTRs should review, analyze, and evaluate the contractor's
progress, performance, and compliance for conformance with technical, price, and
schedule provisions of the contract, and they must document actions taken. The
guidebook states that the contract work file must document all relevant and significant
actions, all correspondence between the COTR and the contractor or the contracting
officer, property reports, performance reports, COTR inspections and site visits, and
documentation of financial analysis.

Notwithstanding this guidance, the program’s COTRs did not maintain an adequate work
file to archive important contract and performance actions. The COTRs did not maintain
records, documentation, or analysis for significant actions regarding the contract, the
program’s performance results, or site visit and property reports. The program work files
did not include property reports, a nonexpendable property plan, or a comprehensive
inventory of assets procured with USAID/Iraq funds to inspect during site visits. Also,
the files did not contain records documenting program officials’ meetings.


                                                                                        15
According to USAID/Iraq’s COTRs and other officials working on the program, numerous
site visits were conducted to monitor the program’s performance, but they were not
always recorded. Instead, the officials relied on informal communications, such as
e-mails and site visits with contractor personnel, to discuss the activities and the details
of each task. These communications generally were not filed or centrally organized.
                    10
A prior audit report of the Economic Reform Program also identified issues with COTR
monitoring and recommended that USAID/Iraq’s Office of Economic Growth and
Agriculture establish and implement management procedures requiring work files to
include documents of significant actions and electronic communication printouts
associated with each contract. Although USAID/Iraq originally took final action to
address the recommendation, the mission no longer complies with it.

USAID/Iraq operates in what is arguably the Agency’s most complex and fluid
environment. The difficulties of operating in such an atmosphere are exacerbated by the
short assignment tours and rapid turnover of personnel, resulting in a lack of institutional
memory. In fact, the EGII Program has been managed by four COTRs in as many
years. In addition, employees are entitled to 63 days per year for leave and travel as
part of their assignment in Iraq, and their absences further strain the program’s
continuity.

The COTR turnover, combined with the lack of complete and up-to-date COTR contract
files, significantly hindered the mission’s monitoring of the program, particularly during
COTR changes. Archived e-mails that document imperative decisions and other
information about the program’s past are useful only if they are memorialized in contract
files that are available to future program officials. Therefore, documenting the status of
the program’s tasks and performance is an important and integral part of program
management. Without a well-documented and continuous work file that spans the life of
the award, successor COTRs will have difficulty understanding the program and its
current status. In addition, inadequate documentation of actions or decisions—whether
positive or negative—leads to poor succession planning and detracts from effective
program management. Therefore, we are making the following recommendation:

     Recommendation No. 11: We recommend that USAID/Iraq update an Office of
     Economic Growth and Agriculture procedure, dated August 20, 2004, to include a
     regular review of contracting officer’s technical representative work files by the
     contracting officer’s technical representative’s supervisor, to ensure that they are
     being prepared.


Antiterrorism Provision Should
Be Included in Two Subawards
ADS 302.3.6.13 states that “U.S. Executive Orders (including E.O. 13224, Executive
Order on Terrorism Financing) and U.S. law prohibit transactions with, and the
provision of resources and support to, individuals and organizations associated with

10
  “Audit of USAID/Iraq’s Economic Reform Program” (Audit Report No. E-266-04-004-P,
September 20, 2004).


                                                                                            16
terrorism.” In accordance with this directive, the USAID/Iraq EGII Program contract,
section H.12—“Executive Order on Terrorism Financing,” included the following
clause:

   The Contractor is reminded that U.S. Executive Orders and U.S. law prohibit
   transactions with, and the provision of resources and support to, individuals and
   organizations associated with terrorism. It is the legal responsibility of the
   contractor to ensure compliance with these Executive Orders and laws. This
   provision must be included in all subcontracts/subawards issued under this
   contract.

However, the terrorism financing clause was absent from two of six judgmentally
selected subcontracts, sampled to verify whether the mandatory provision was
present. The two subcontracts related to two independent consultants’ contracts.
According to the contractor’s Chief of Party, BearingPoint inadvertently had used an
old version of the independent contractor agreement instead of a newer version, which
contained the provision prohibiting terrorism financing. This omission of the mandatory
provision from the EGII Program contractor’s subawards increases the risk that USAID
funds may be used to finance terrorism. Consequently, we are making the following
recommendation:

   Recommendation No. 12: We recommend that USAID/Iraq direct the Economic
   Governance II Program contractor to modify the subcontract language in the two
   independent consultant agreements to include the required provision pertaining
   to the Executive Order on Terrorism Financing and that USAID/Iraq obtain a copy
   of the modified contract as confirmation.




                                                                                       17
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Iraq agreed with each of the 12 audit recommendations contained in the report.
On the basis of the mission's comments, we consider that final action has been taken to
address recommendations 1, 2, 3, 5, 6, 7, 9, 10, 11, and 12, and a management
decision has been reached on recommendations 4 and 8. The status of each
recommendation is shown below.

Recommendation No. 1: USAID/Iraq concurred with recommendation 1 and developed
a systematic monitoring and evaluation process for the EGII Program that will collect,
record, organize and track the status of each task required by the contract, or its
modification.   As evidence of the system, USAID/Iraq’s Economic Growth and
Agriculture (EGA) Office prepared a “Close-Out Timeline Status Tracker” to document
the planned and actual status of contract deliverables. On the basis of our review of
these documents, we consider that the mission has taken final action to address
recommendation 1.

Recommendation No. 2: USAID/Iraq concurred with recommendation 2 and adjusted
EGII’s performance targets and indicators to capture the results under all major program
components to ensure that they were reasonably attributable to USAID activities. To
support the action taken, the mission provided a copy of the revised EGII performance
monitoring plan, which was approved by USAID/Iraq on May 3, 2009. On the basis of
our review of the revised performance monitoring plan, we consider that the mission has
taken final action to address recommendation 2.

Recommendation No. 3: USAID/Iraq concurred with recommendation 3 and had its
EGII contractor prepare a schedule of all program-funded information technology (IT)
projects in accordance with USAID’s Automated Directives System 548.3. To support
the action taken, the mission provided a copy of the contractor’s schedule of IT projects
costing over $100,000, which was prepared by the contractor on February 11, 2009.
The schedule included 10 projects, all of which require approval by USAID/Information
Resource Management. On the basis of our review of the schedule, we consider that
the mission has taken final action to address recommendation 3.

Recommendation No. 4: USAID/Iraq concurred with recommendation 4 and reviewed a
listing of all IT projects under the EGII Program and submitted those with a cost of
$100,000 or more to USAID’s Office of the Chief Information Officer/Business,
Consulting, and Customer Service Division for approval. To support the action taken,
the mission provided copies of the e-mails, which its contractor had submitted for 5 of 11
IT projects. On the basis of our review of these e-mails, we consider that the mission
has made a management decision to address recommendation 4. Final action on the
recommendation will occur once all 11 IT projects have been submitted to the Office of
the Chief Information Officer for review.

Recommendation No. 5: USAID/Iraq concurred with recommendation 5 and modified
the EGII contract to reiterate the requirement that all program-funded activities with an IT



                                                                                         18
component of $100,000 or more over the full IT project life cycle be submitted to USAID
for independent verification and validation review and approval in accordance with ADS
548.3. On the basis of our review of modification no. 23 to the EGII contract, we
consider that the mission has taken final action to address recommendation 5.

Recommendation No. 6: USAID/Iraq concurred with the intent of recommendation 6.
On February 11, 2009, USAID/Iraq’s Office of Acquisition and Assistance issued a letter
to the EGII contractor rescinding the September 3, 2004, letter that authorized a higher
threshold for subcontract consent than authorized by the Federal Acquisition Regulation.
USAID/Iraq’s letter also required the contractor to abide immediately by the
subcontracting consent threshold stipulated in the Federal Acquisition Regulation. On
the basis of our review of USAID/Iraq’s letter dated February 11, 2009, we consider that
the mission has taken final action to address recommendation 6.

Recommendation No. 7: USAID/Iraq concurred with recommendation 7 and required
its EGII contractor to prepare and submit a comprehensive nonexpendable property
report of program-funded assets as required by USAID Acquisition Regulation 752.245-
70. On the basis of our review of the nonexpendable property report, we consider that
the mission has taken final action to address recommendation 7.

Recommendation No. 8: USAID/Iraq concurred with recommendation 8 and required
its EGII Program contractor to complete a nonexpendable property plan as required by
USAID Acquisition Regulation 752.245-71(b). In response to the recommendation, the
EGII Program contractor prepared a nonexpendable property report and a plan/timeline
to guide the transfer of EGII property upon completion of the EGII Program in June
2009. On the basis of the mission’s actions, we consider that a management decision
has been made to address recommendation 8. Final action will occur when there is
evidence that the nonexpendable property plan has been implemented.

Recommendation No. 9: USAID/Iraq concurred with recommendation 9. In response
to the recommendation, the director of the mission’s EGA Office issued a memo,
“Contracting Officer Technical Representative (COTR) Checklist,” to office staff on April
30, 2009. The memo outlines the monthly, quarterly, and annual reports that COTRS
are required to obtain from their contractors, including annual nonexpendable property
reports. On the basis of our review of the COTR checklist, we consider that the mission
has taken final action to address recommendation 9.

Recommendation No. 10: USAID/Iraq concurred with recommendation 10 and
modified the EGII Program contract to include the minimum performance reporting
requirements that are necessary to monitor the contractor’s performance. The
modification also specifies the content of the required reports, their frequency, and the
due dates. On the basis of our review of contract modification no. 23, dated March 5,
2009, we consider that the mission has taken final action to address recommendation
10.

Recommendation No. 11: USAID/Iraq concurred with recommendation 11 to update
the EGA Office’s procedure, dated August 20, 2004, to include a regular review of the
COTR work files by the COTR’s supervisor. USAID/Iraq’s EGA Office updated its
procedure on April 30, 2009. The new procedures require activity managers and
COTRs to maintain a work file that documents all significant actions associated with
each contract. They also require COTRs to print out all electronic communications and


                                                                                      19
include them in the work file. In addition, they require the COTR’s supervisor to review
COTR work files regularly to ensure that they are being prepared. On the basis of our
review of the new procedures, we consider that the mission has taken final action to
address recommendation 11.

Recommendation No. 12: USAID/Iraq concurred with recommendation 12, but the EGII
Program contractor could not modify the subcontract language in the two independent
consultant agreements because both agreements had ended. However, the EGII
Program contractor did modify the language in its standard independent consultant
agreements and subcontracting agreements to include the required provision pertaining
to the Executive Order on Terrorism Financing. On the basis of our review of the
contractor’s standard subcontract agreement, we consider that the mission has taken
final action to address recommendation 12.




                                                                                     20
                                                                            APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Office of Inspector General/Iraq conducted this performance audit in accordance
with generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions in accordance with our audit objective.
We believe that the evidence obtained provides such a basis. The purpose of the audit
was to determine whether USAID/Iraq’s Economic Governance II (EGII) Program is
achieving its intended results and what impact the program has made.

Our ability to verify the existence of the EGII Program activities was substantially
restricted because of heightened security concerns after the contractor’s employees
were kidnapped in June 2007. Consequently, we employed alternative procedures to
provide reasonable assurance of the existence of economic governance activities, as
explained in the methodology section of this report.

In planning and performing the audit, we gained an understanding of USAID/Iraq’s
existing management controls and identified and reviewed internal controls related to
administrative requirements contained in USAID/Iraq’s contract with BearingPoint, Inc.
We tested contractor performance in meeting the contractual obligations and adherence
to USAID’s Automated Directives System (ADS) and Acquisition Regulation (AIDAR), as
well as the Federal Acquisition Regulation (FAR) and Executive Order 13224, as they
relate to implementing the EGII Program. In addition, we reviewed contract tasks and
performance measures and indicators for the first 4 years of the program activities.

The audit covered the contract performance period of September 3, 2004, through
September 12, 2008—ending the day before the contract’s scope was reduced
significantly. The 5-year, $223 million contract, scheduled to end on September 2, 2009,
included two $20 million, 1-year option periods that were simultaneously exercised on
June 21, 2007. As of December 16, 2008, USAID/Iraq had disbursed $195 million of the
$223 million obligated.

During the audit, we considered the performance of the original statement of work and
any changes made by contract modifications through September 12, 2008—4 of 5 years
of the performance period. We did not take into consideration the potential effects or
test the reduced statement of work that were the result of contract modification no. 21,
dated September 13, 2008. The program’s activities we reviewed took place during
fiscal years 2003 through 2008. Audit fieldwork was conducted at USAID/Iraq and
BearingPoint headquarters in Baghdad, Iraq, from September 25, 2008, through
February 3, 2009.




                                                                                      21
Methodology
To answer the audit objective, we reviewed documentation that included (1) the EGII
Program contract and modifications, (2) annual workplans, (3) monthly performance and
financial reports, (4) the Federal Managers’ Financial Integrity Act of 1982,11 (5) EGII
Program’s performance management plan for fiscal years 2007 and 2008, (6)
USAID/Iraq’s quarter portfolio review for the second quarter of FY 2008, (7) USAID’s
Business, Consulting, and Customer Services ADS 548 review log, (8) EGII Program
base contract report (2008), and (9) USAID/Iraq’s Financial Management Information
System technical review scope of work (dated August 11, 2008).

To determine the relevance and reliability of evidential matter, considering security
conditions, we conducted interviews with appropriate personnel from USAID/Iraq and the
implementing partner at their respective headquarters in Baghdad, Iraq, and received
correspondence from an array of engaged sources in the field.

Specifically, we reviewed the terms of the EGII Program contract between USAID/Iraq
and BearingPoint. The criteria for selecting the terms included substance and
availability of information and the potential material impact of negligence or omission.
Using available information, we judgmentally selected standards within those terms
useful for testing. We devised tests and reviewed and analyzed information to
determine whether contractual obligations had been met, as well as other requirements
mandated by USAID’s ADS or AIDAR, FAR, and Executive Order 13224. The selected
terms included USAID’s independent verification and validation of program-funded
information technology reviews; subcontracts; control of nonexpendable property; the
Executive Order on Terrorism Financing; and contracting officer’s technical
representative’s certification and designation.

We also reviewed the planned results of the EGII Program’s performance management
plan and data quality table, dated October 9, 2008, that reported on 41 indicators. We
judgmentally selected program indicators to review their characteristics and determine
whether the results would yield quality data useful to management. After corroborating
with USAID and program officials that few performance indicators could be used to
adequately measure the program’s current performance, we determined the plan
irrelevant and did not test the data’s validity.

Instead, to answer the audit objective, we tested the contract’s planned activities as
stated in the contract’s original statement of work and any change from modification
no. 5. We performed analyses and relied to varying degrees on documentation and
information to substantiate the contract task’s status. For example, we asked the
implementing contractor to tell us (1) the status of the 398 contract tasks, using three
selected answers (completed, deleted, or ongoing) and (2) whether source
documentation was available to review. Upon the contractor’s original response, we
judgmentally selected and reviewed 27 of 118 contract tasks (23 percent) that were
considered completed with source documentation to verify the information’s integrity and
validity.

We established that if relevant documentation existed for at least 80 percent of the
source documentation, the test demonstrated that the support was reliable. Overall, we
11
     Public Law 97–255.


                                                                                     22
also established that if the number of completed contract tasks was at or above a
statistical threshold of 80 percent (318 contract tasks) of the total planned tasks in the
contract, the program had met it intended results.

To test the source documentation, we verified program deliverables, conducted
interviews, and communicated by e-mail with numerous sources familiar with EGII
Program activities. In examining documents, we performed limited tests of the
procedures and controls relating to the mission’s monitoring and reporting of the
contract’s results. When outstanding information could not be produced, as of
December 17, 2008, we assumed that it did not exist.

Lastly, as part of our planning work, we also examined prior audits of USAID/Iraq’s EGII
Program and of its predecessor program, the Economic Reform Program, conducted by
USAID/OIG, the Defense Contract Audit Agency, and the Special Inspector General for
Iraq Reconstruction.




                                                                                       23
                                                                             APPENDIX II 




MANAGEMENT COMMENTS



Date:          May 5, 2009


To:            Director, Office of Inspector General/Iraq, Gerard Custer

From:          USAID/Iraq Mission Director, Christopher D. Crowley /s/

Subject:       Management Comments, Audit of USAID/Iraq’s Economic Governance II
               Program (EG II)

References:    Audit Report No. E-267-09-00X-P, dated April 06, 2009


Thank you for affording the USAID/Iraq mission an opportunity to respond to the draft
audit report for USAID/Iraq’s EG II Program. Below is the Mission’s response to the
twelve (12) recommendations outlined in the draft audit report for your consideration.

We would also like to thank your team who spent a good deal of time evaluating this
issue in good collaboration with the Mission’s technical offices. This mutual effort will
certainly result not only in the better performance of this program for the time we have
left, but it will benefit the overall management of all USAID/Iraq programs.


Background

The Office of Inspector General (OIG) draft audit report on the EG II program was
provided to the Mission on April 6, 2009. The audit sought to determine whether
USAID/Iraq’s EG II program is achieving intended results, and the impact that the
program has made so far.

Accordingly, this audit focused on the review of the program and its scope of work and
on the list of intended results and performance indicators to date. Each of the findings
has been examined to determine 1) whether the Mission is in agreement, and 2) what
actions would be undertaken in response to the recommendation. Through this report
the Mission will state whether it agrees with the recommendations and will also discuss
the actions taken or planned to be taken. Where management actions in response to the
audit are not yet resolved, the Mission will provide target dates for their completion. The
Mission recognizes the value as a management tool of this OIG audit, and is in
agreement with all of the audit’s recommendations.




                                                                                        24
                                                                           APPENDIX II 




Recommendation No. 1
We recommend USAID/Iraq develop a systematic monitoring process for the EG II
Program to collect, record, organize and track the status of each task required by the
contract, or its modification, within 30 days from the issuance of this report.

Action Taken
USAID/Iraq concurs with the recommendation that a systematic monitoring process for
the EG II Program be developed. USAID/Iraq has developed such a systematic
monitoring and evaluation process for the EG II Program that will collect, record,
organize and track the status of each task required by the contract, or its modification.
Please see Attachment A, the USAID/Iraq Economic Growth and Agriculture (EGA)
Office’s Monitoring and Evaluation Plan, which was approved on May 04, 2009. The
Mission requests OIG’s concurrence that final action has been taken on this
recommendation.


Recommendation No. 2
We recommend USAID/Iraq review and revise the EG II Program performance indicators
listed in its performance management plan to ensure that they are reasonably attributable
to USAID activities, in accordance with USAID’s Automated Directives System 203.3.

Action Taken
USAID/Iraq concurs with the recommendation that the EG II Program’s performance
indicators and performance management plan be revised and reviewed. USAID/Iraq has
adjusted the performance targets and indicators to capture the results under all major
program components and to ensure they are reasonably attributable to USAID activities.
This was done in the revised Performance Monitoring Plan (PMP) approved by
USAID/Iraq on May 03, 2009. Please see Attachment B, the EG II Performance
Monitoring Plan. The Mission requests OIG’s concurrence that final action has been
taken on this recommendation.


Recommendation No. 3
We recommend that USAID/Iraq request the contractor to prepare a schedule of all
program-funded Information Technology (IT) projects in accordance with USAID’s
Automated Directives System 548.3.

Action Taken
USAID/Iraq concurs with the recommendation that the EG II contractor prepare a
schedule of all program-funded information technology projects in accordance with
USAID’s Automated Directives System 548.3. The EG II contractor has responded to
USAID/Iraq’s request to prepare a schedule of all program-funded IT projects in
accordance with USAID’s Automated Directives System 548.3. Please see Attachment
C, EG II’s schedule of IT projects costing over $100,000, which was prepared by the
contractor on February 11, 2009. The Mission requests OIG’s concurrence that final
action has been taken on this recommendation.

Recommendation No. 4
We recommend that USAID/Iraq review all technology projects and submit those with a
cost of at least $100,000 to USAID’s Office of Chief Information Officer/Business,


                                                                                      25
                                                                            APPENDIX II 



Consulting, and Customer Service Division for approval.

Action Taken
USAID/Iraq concurs with the recommendation regarding USAID/Iraq’s review of all IT
projects from the EG II Program costing at least $100,000 and submittal of those IT
projects to USAID’s Office of Chief Information Officer/Business, Consulting, and
Customer Service Division for approval. USAID/Iraq reviewed all IT projects from the
EG II Program and submitted those with a cost of at least $100,000 to USAID’s Office of
Chief Information Officer/Business, Consulting, and Customer Service Division for
approval which will be completed and submitted by May 15, 2009. Please see
Attachment D, the submission schedule of IT projects costing $100,000 or more. The
Mission requests OIG’s concurrence that final action will be taken on this
recommendation on May 15, 2009.


Recommendation No. 5
Recommendation No. 5: We recommend that USAID/Iraq modify the EG II Program
contract to require that all program-funded activities with an information technology
component of at least $100,000 over the full information technology project life cycle be
submitted to USAID for independent verification and validation review and approval, in
accordance with Automated Directives System 548.3.

Action Taken
USAID/Iraq concurs with the recommendation regarding modifying the EG II Program
contract to re-iterate the requirement that all program-funded activities with an
information technology component of at least $100,000 over the full information
technology project life cycle be submitted to USAID for independent verification and
validation review and approval in accordance with ADS 548.3. USAID/Iraq modified the
EG II Program contract to re-iterate the requirement on March 05, 2009. Please see
Attachment E, Modification No. 23. The Mission requests OIG’s concurrence that final
action has been taken on this recommendation.


Recommendation No. 6
We recommend that USAID/Iraq’s Office of Acquisition and Assistance modify the EG II
Program contract to reduce the subcontract consent threshold to the appropriate level.

Action Taken
USAID/Iraq concurs with the intent of this recommendation. The subcontract threshold
was never included in the EG II contract. Rather, the contract incorporates by reference
FAR 52.244-2 titled “Subcontracts,” which implements the requirements of FAR Part 44
on subcontracting thresholds and defines when consent is required. Due to a letter of
authorization signed by the awarding Contracting Officer, the contractor utilized a higher
threshold for subcontract consent than authorized by the FAR. USAID/Iraq’s Office of
Acquisition and Assistance rescinded that letter of authorization on February 11, 2009
and required the contractor to abide by the subcontracting consent threshold stipulated
in the FAR ($100,000 for all non-commercial items/services subcontracts). Please see
Attachment F, the Contracting Officer’s rescission letter. The Mission requests OIG’s
concurrence that final action has been taken on this recommendation.




                                                                                       26
                                                                            APPENDIX II 



Recommendation No. 7
We recommend that USAID/Iraq require its EG II Program contractor prepare and
submit a comprehensive nonexpendable property report of program-funded assets as
required by USAID Acquisition Regulation 752.245-70.

Action Taken
USAID/Iraq concurs with the recommendation to require its EG II Program contractor to
prepare and submit a comprehensive nonexpendable property report of program-funded
assets as required by USAID Acquisition Regulation 752.245-70. USAID/Iraq EG II
contractor responded to USAID/Iraq’s request to prepare a comprehensive
nonexpendable property report of program-funded assets and submitted it to the Mission
on April 28, 2009. However, due to the size of this report (several 100 pages), it was not
practical to attach it. USAID/Iraq does have the electronic version of the report and is
able to share it if needed. The Mission requests OIG’s concurrence that final action has
been taken on this recommendation.


Recommendation No. 8
We recommend that USAID/Iraq require its EG II Program contractor complete a
nonexpendable property plan as required by USAID Acquisition Regulation 752.245-
71(b).

Action Taken
USAID/Iraq concurs with the recommendation to require its EG II Program contractor to
complete a nonexpendable property plan as required by USAID Acquisition Regulation
752.245-71(b). Please see Attachment G, EG II’s non-expendable property plan with
timetable dated April 02, 2009. USAID/Iraq EG II contractor will execute and complete
its nonexpendable property plan by the week of June 13th, 2009 (if not sooner), and will
submit it to USAID/Iraq.


Recommendation No. 9
We recommend that USAID/Iraq’s EGA Office develop policies and procedures to
ensure annual reports on all nonexpendable property are conducted by its contractors in
accordance with USAID Acquisition Regulation 752.245-71(b).

Action Taken
USAID/Iraq concurs with the recommendation regarding the development of policies and
procedures to ensure reports on all nonexpendable property are conducted by its
contractors in accordance with USAID Acquisition Regulation 752.245-71(b).
USAID/Iraq’s EGA Office developed policies and procedures to ensure annual reports
on all nonexpendable property are conducted by its contractors. Please see Attachment
H, EGA’s Contracting Officer Technical Representative (COTR) checklist including policy
on non-expendable property reporting, which was issued on April 30, 2009. The Mission
requests OIG’s concurrence that final action has been taken on this recommendation.


Recommendation No. 10
We recommend USAID/Iraq’s Office of Acquisition and Assistance, in conjunction with
input from the EG II Program cognizant technical officer, modify the EG II Program
contract to include the minimum performance reporting requirements that are necessary to


                                                                                       27
                                                                            APPENDIX II


monitor the contractor’s performance. The schedule should include the content of the
required reports, their frequency, and due dates.

Action Taken
USAID/Iraq concurs with the recommendation to modify the EG II Program contract to
include the minimum performance reporting requirements that are necessary to monitor
the contractor’s performance. USAID/Iraq modified the EG II Program contract to include
the minimum performance reporting requirements that are necessary to monitor the
contractor’s performance. The schedule includes the content of the required reports, their
frequency, and the due dates. Please see Attachment E, modification #23 dated March
05, 2009, which incorporates the performance reporting requirements schedule. The
Mission requests OIG’s concurrence that final action has been taken on this
recommendation.


Recommendation No. 11
We recommend that USAID/Iraq update an EGA Office procedure, dated August 20,
2004, to include a regular review of cognizant technical officer work files by the
cognizant technical officer’s supervisor, to ensure they are being prepared.

Action Taken
USAID/Iraq concurs with the recommendation to update the EGA Office procedure,
dated August 20, 2004, to include a regular review of the COTR work files by the
COTR’s supervisor. USAID/Iraq’s EGA Office updated its procedure on April 30, 2009 to
include a regular review of COTR work files by the COTR’s supervisor, to ensure they
are being prepared. Please see Attachment I, the memo and policy outlining the above.
The Mission requests OIG’s concurrence that final action has been taken on this
recommendation.


Recommendation No. 12
We recommend that USAID/Iraq direct the EG II Program contractor modify the
subcontract language in the two independent consultant agreements to include the
required provision pertaining to the Executive Order on Terrorism Financing and, obtain
a copy of the modified contract as confirmation.

Action Taken
USAID/Iraq concurs with the recommendation to direct the EG II Program contractor
modify the subcontract language in the two independent consultant agreements to
include the required provision pertaining to the Executive Order on Terrorism Financing.
The two independent consultant agreements (sub-contracts) have concluded on June
30, 2006 and October 01, 2008 respectively. The EG II Program contractor modified the
language in its standard independent consultant agreements and sub-contracting
agreements in section H.12 to include the required provision pertaining to the Executive
Order on Terrorism Financing. The Mission received the contractor’s standard
consultant and sub-contractor agreement on April 03, 2009. Please see Attachment J,
the contractor’s standard agreement to include this clause. The Mission requests OIG’s
concurrence that final action has been taken on this recommendation.




                                                                                       28
                                                                                                 APPENDIX III 




                                                                                                              Office of
      Economic Governance II Program - List of Ongoing                                                       Inspector
             Contract Tasks (as of December 6, 2008)                                                          General
                                                                                                              Review

                                                                Original Target          Target
                                                               Completion Date      Completion Date         Length of
Number                   Contract Task                         (per the contract,     (per contract           Time
                                                                 September 3,       modification no. 5,    Outstanding
                                                                     2004)          March 28, 2005)

         Oversee the completion of the roll out (Phase III)
         of the Financial Management Information System
                                                                                                            41 months (3
  1      (FMIS) within the Ministry of Finance (MOF), the        September 2005          July 2005
                                                                                                           years 5 months)
         18 Governorates and 28 related Ministries. (task
         A.3.1)

         Assist the MOF to improve their capacity to
         prepare an annual budget that integrates all
         levels of governments and that uses an
         International Monetary Fund (IMF) framework
                                                                                                             36 months (3
  2      based on functional classifications,                        None             December 2005
                                                                                                                years)
         organizational structures, economic
         classifications, and source of financing for line
         agencies, provinces and local governments.
         (task A.3.2)

         Provide related services and implement reforms
  3                                                                  None                Ongoing                 Perpetual
         as appropriate and needed. (task A.3.10)

         Assess and design the long-term Information
                                                                                                          15 months (1 year
  4      Technology infrastructure requirements for the              None             September 2007
                                                                                                              3 months)
         Central Bank of Iraq (CBI). (task B.1.10)


         Install, implement and train the CBI staff on the
         Management Information Systems for the CBI.
         Provide general central bank training to the CBI                                                 15 months (1 year
  5                                                                  None             September 2007
         staff to develop their skills and capabilities,                                                      3 months)
         including regional training programs in the
         neighboring countries. (task B.1.11)


         Bank supervisors conduct on site examinations,
         assign CAMEL (Capital, Assets, Management,
         Earnings, and Liquidity) ratings in conformity with
                                                                                                          15 months (1 year
  6      Basle principles, identify weaknesses, agree with           None             September 2007
                                                                                                              3 months)
         management on prompt corrective actions, and
         enforce sanctions in case of non-compliance. By
         the end of the second year. (task B.3.17)

         Create legal reform action plan for years two and
         three, including creation of working groups to
                                                                                                          15 months (1 year
  7      address gaps and needed reforms, recruitment            September 2007       September 2007
                                                                                                              3 months)
         of legal reform experts, and schedule for
         progress. (task D.8.3)




                                                                                                          29 

                                                                                                                           Office of
         Economic Governance II Program - List of Ongoing                                                                 Inspector
                Contract Tasks (as of December 6, 2008)                                                                    General
                                                                                                                           Review

                                                                    Original Target               Target
                                                                   Completion Date           Completion Date             Length of
Number                       Contract Task                         (per the contract,          (per contract               Time
                                                                     September 3,            modification no. 5,        Outstanding
                                                                         2004)               March 28, 2005)

             Provide institutional capacity building services,
             through training, study tours, and provision of
                                                                                                                       15 months (1 year
    8        experts for commercial law issues (including            September 2007            September 2007
                                                                                                                           3 months)
             Constitutional, federalism, and separation of
             powers issues). (task D.8.4)

             Inspection powers of the Ministry of Labor and
             Social Affairs for the oversight and enforcement                                                            40 months (3
    9                                                                      None                   August 2005
             of the social security sector are created and                                                              years 4 months)
             enforced. (task F.12)
             Provide assistance related to social safety nets.
    10                                                                     None                      None                    None
             (task G.3.20)
             Provide assistance related to commercial law.                                                               49 months (3
    11                                                               September 2005                  None
             (task G.3.32)                                                                                              years 3 months)
             Provide assistance related to judicial reform and
                                                                                                                         49 months (3
    12       administration as they relate to commercial law.        September 2005                  None
                                                                                                                        years 3 months)
             (task G.3.33)
              Provide assistance related to pension funds.                                                                 49 months (3
    13                                                               September 2005                   None
              (task G.3.35)                                                                                               years 3 months)
Note: Applied target completion date from contract modification no. 5, or that of the original contract (if date was not available in the
modification) to the date we received a response about the contract task’s status.




                                                                                                                          30

U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202–712–1150 

            Fax: 202–216–3047 

            www.usaid.gov/oig
